Melissa Arbus Sherry

555 Eleventh Street, N.W., Suite 1000

Direct Dial: (202) 637-3386

Washington, D.C. 20004-1304

melissa.sherry@lw.com

Tel: +1.202.637.2200 Fax: +1.202.637.2201
www.lw.com
FIRM / AFFILIATE OFFICES
Beijing

August 11, 2021
FILED VIA COURT’S ELECTRONIC
FILING SYSTEM
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543–0001
Re:

Moscow

Boston

Munich

Brussels

New York

Century City

Orange County

Chicago

Paris

Dubai

Riyadh

Düsseldorf

San Diego

Frankfurt

San Francisco

Hamburg

Seoul

Hong Kong

Shanghai

Houston

Silicon Valley

London

Singapore

Los Angeles

Tokyo

Madrid

Washington, D.C.

Milan

Máxima Acuña-Atalaya, et al. v. Newmont Mining Corporation, et al.,
No. 21-33

Dear Mr. Harris:
On behalf of all respondents in the above-captioned case, I hereby request, under Rule
30.4 of the Rules of this Court, an extension of time to and including October 4, 2021, within
which to file a brief in opposition to certiorari in this case. The petition for writ of certiorari was
filed on July 8, 2021, and the Court requested a response on August 4, 2021. Respondents’ brief
in opposition is currently due on September 3, 2021.
This is a first extension request and the 30 days is requested because of counsel’s other
professional commitments, including a major appellate brief and two in-person appellate
arguments that require travel between September 17 and September 23. Counsel for petitioners
have asked us to represent that “Petitioners consent to a three-week extension rather than 30
days, because the proposed reply period conflicts with prior commitments and pushes up against
a team-member’s baby’s due date.”
Thank you in advance for your attention to this matter, and please do not hesitate to
contact me should you need additional information.
Respectfully,

Melissa Arbus Sherry
of LATHAM & WATKINS LLP
cc:

Richard L. Herz
Counsel for Petitioners

